:>
V

(TV) A

N(J|v

ct.

01 | 0 )

IN THE
SUPREME COURT OF THE UNITED STATES

O'*

;c

ROY L. RAMBO, JR •5

<
:

(«•■

;

[jin

I.-.-

..

Petitioner,
v.

.

FILED
JAN 0 8 2021

ADMIN. EAST JERSEY STATE PRISON, ETAL•)

OFFICE OF THE CLERK
SUPREME COURT. US

Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Respectfully submitted by,
Roy L. Rambo, Jr., Pro Se
INM#5216967 SBI#205593-B
South Woods State Prison
215 Burlington Road South
Bridgeton, New Jersey 08302
(No telephone number available)

PETITIONER IS INCARCERATED

.
•i

r
L-zsf

■MS! f 3 ;r?t

mmm

'r.f*

}
V

QUESTIONS PRESENTED
1.

Did this Court's holding in Luis v. United States, 578 U. S.
, 136 S. Ct. 1083,
194 L. Ed. 2d 256 (2016) simply clarify a Federal civil asset forfeiture statute
by determining what the statute had always meant - that neither the
government, nor a judge, is authorized to restrain legitimate, untainted assets
(those not traceable to a criminal offense) that a defendant requires to fund
his/her defense in a criminal matter?

2.

Should the precept in Luis u. United States regarding the pretrial restraint of
legitimate, untainted assets needed to retain counsel of choice be declared
retroactive for cases on collateral review where it can be demonstrated that: (1)
a court ordered restraint upon untainted assets prevented the defendant from
exercising his/her Sixth Amendment right to employ counsel for the criminal
matter; (2) but for the court ordered restraint, the defendant had adequate
financial resources to retain counsel of choice for the criminal matter; and (3)
the defendant moved for the release of assets sufficient to retain counsel prior
to the criminal trial?

3.

Whether the Sixth Amendment right to counsel of choice was violated when a
state probate court issued an order that froze the defendant’s lawfully acquired
assets, and thereby deprived him of access to the funds he needed to exercise
his Sixth Amendment right to employ counsel of his choice to defend a criminal
prosecution where he was charged with murdering his wife?

4.

This Court has determined the root guarantee of the Sixth Amendment is the
right of a criminal defendant, who does not require court-appointed counsel, to
retain the best attorney he or she can afford to defend against the criminal
charges. Is this constitutional protection the same, or fundamentally different,
as between an individual with sufficient assets to retain private counsel of
their own choosing and a wealthy person who is wrongly reduced to indigent
status by the courts and then has to make a "Hobson's choice" decision to rely
on court-appointed counsel or self-representation at trial?

5.

In a spousal murder case, is it unconstitutional for a judge to restrain the
entirety of a killer's prior legal interest in individually or jointly held property
pursuant to a state probate statute, in order to preserve the killer's share of
the assets for the enlargement of the decedent's estate?

l

'}
V

6.

Does a state probate judge have the jurisdiction or authority to obstruct a
criminal defendant's Sixth Amendment right to retain desired counsel for the
criminal trial, or any other rights guaranteed under the Bill of Rights?

7.

Does a state probate judge have jurisdiction to decide a criminal defendant's
Sixth Amendment counsel of choice issue based on the "proper administration
of justice" in the criminal case?

8.

Does the fact that a forfeiture statute is included under the New Jersey
Probate Code relieve the State of its responsibility for violations of rights
protected by the Sixth Amendment; or does a conviction obtained following
that violation constitute a "structural error" that mandates the reversal of a
conviction?

9.

Did the Ninth Amendment preserve the common law right for a non-indigent
individual to use his/her lawful financial resources to .employ desired counsel to
defend a criminal matter? Furthermore, does the Ninth Amendment protect
that unenumerated right from denial or disparagement pursuant to a state
civil forfeiture statute?

10. Does the wrongful pretrial restraint of a criminal defendant's legitimate,
untainted assets pursuant to a state probate statute violate the Fifth, Sixth,
Eighth, Ninth, and Fourteenth Amendments, as well as the Supremacy Clause
to the United States Constitution and the defendant's presumption of
innocence?
11. Whether the Antiterrorism and Effective Death Penalty Act (“AEDPA”)
.standard of deference to a state court ruling on a federal constitutional claim
applies when the only state court “merits” ruling substituted the Sixth
Amendment right to counsel for an indigent person - a distinctly different legal
issue — instead of ruling on the defendant’s Sixth Amendment right to counsel
of choice claim?

n

>

LIST OF PARTIES
[X]

All parties appear in the caption of the case on the cover page.

[ ]

All parties do not appear in the caption of the case on the cover page. A list

of all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows.
RELATED CASES
Roy L. Rambo v. Administrator East Jersey State Prison, et al., No. 20-2196 (3d Cir.
Oct. 19, 2020) (unpublished opinion).
Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Feb. 29,
2020) (unpublished opinion).
Roy L. Rambo v. Administrator East Jersey State Prison, et al., 762 Fed. Appx. 105
(3d Cir. Jan. 30, 2019), cert, denied, Roy L. Rambo v. Patrick Nogan,
Administrator, East Jersey State Prison, et al., No. 18-8871,„__ U.S.___ , 139
S. Ct. 2701 (2019).
Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Oct. 2,
2017) (unpublished opinion).
Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Sept. 1,
2017) (unpublished opinion).
State of New Jersey v. Roy L. Rambo, Jr., No. A-0382-10T2 (N.J. App. Div. 2013)
(unpublished opinion).
State of New Jersey v. Roy L. Rambo, Jr., 401 N.J. Super. 506 (App. Div. 2008), cert,
denied, Roy L. Rambo, Jr. v. New Jersey, 556 U.S. 1225 (2009).
In re Estate of Rambo, No. 5308-09, No. A-5308-09 (N.J. App. Div. 2012)
(unpublished opinion), cert. den. Roy L. Rambo, Jr. v. Estate of Linda Ann
Rambo, Deceased., 571 U.S. 1237 (2014).

m

V/

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

LIST OF PARTIES..............

111

RELATED CASES...............

iii

TABLE OF CONTENTS

IV

INDEX TO APPENDIX.

vi

TABLE OF AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI

1

DECISIONS BELOW,

1

JURISDICTION........

2

CONSTITUTIONAL PROVISIONS INVOLVED

2

STATUTORY PROVISIONS INVOLVED...........

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

13

I.
The Third Circuit And New Jersey Decisions In This Matter
Conflict With Controlling Supreme Court Precedent That Should Have
Provided Unequivocal Guidance For The New Jersey Chancery Division
To Release Dr. Rambo’s Assets So He Could Exercise His Sixth
Amendment Right To Retain Counsel Of His Choice'................................

14

II.
The District Court Did Not Improperly Rely On Luis v. United
States. Instead, The District Court Looked To Luis For Illustrative
Purposes Only.................................................................................................

20

III. The New Jersey Courts Did Not Adjudicate The Merits Of Dr.
Rambo’s Sixth Amendment Counsel Of Choice Claim...............................

25

IV.
Most State And Federal Courts Have Decided The Question
Regarding Property Rights Under The Slayer Statute In A Manner That
Conflicts With The Decisions By The Third Circuit In This Case. This
Court Should Resolve This Disparity Among The Lower Courts On This
Issue Because It Implicates Substantial Constitutional Rights,
Including The Sixth Amendment Right To Counsel Of Choice, Due
Process And A Fair Trial...............................................................................

32

IV

V.
This Court's Ruling In Luis V. United States, Which Prohibits
The Pretrial Restraint Of Legitimate, Untainted Assets Needed To
Retain Counsel Of Choice, Should Be Declared Retroactive For Cases
On Collateral Review Where It Can Be Demonstrated That:..............

35

(1) A Court Ordered Restraint Upon Untainted Assets
Prevented The Defendant From Exercising His/Her Sixth
Amendment Right To Employ Counsel For The Criminal Matter;35
(2) But For The Court Ordered Restraint, The Defendant Had
Adequate Financial Resources To Retain Counsel Of Choice For
The Criminal Matter; And............................... ;............................ 35
(3) The Defendant Moved For The Release Of Assets Sufficient
To Retain Counsel Prior To The Criminal Trial, As In The
Instant Matter................................................................................ 35
VI.
The State And Federal Courts In This Matter Violated Several
Unenumerated Rights Guaranteed By The Ninth Amendment; The
Supremacy Clause; And Other Substantial Constitutional Protections,
Where The Lower Courts Departed From The Accepted And Usual
Course Of Judicial Proceedings, Or Sanctioned Such A Departure, As To
Call For An Exercise Of This Courts Supervisory Power....................... .

38

VII. Dr. Rambo's Waiver Of His Sixth Amendment Right To CourtAppointed Counsel Was Invalid Requiring Reversal Of His Conviction........ 40
CONCLUSION

40

v

INDEX TO APPENDIX
APPENDIX A:
Opinion of the Court of Appeals - Roy L. Rambo v. Administrator East Jersey
State Prison, et al., No. 20-2196 (3d Cir. Oct. 19, 2020) (unpublished opinion).
APPENDIX B:
Opinion of the District Court - Roy L. Rambo, Jr. v. Patrick A. Nogan, et al.,
No. 14-0874 (MAS) (D.N.J. Feb. 29, 2020) (unpublished opinion).
APPENDIX C:
Opinion of the Court of Appeals - Roy L. Rambo v. Administrator East Jersey
State Prison, et al., 762 Fed. Appx. 105 (3d Cir. Jan. 30, 2019).
APPENDIX D:
Opinion of the District Court - Roy L. Rambo, Jr. v. Patrick A. Nogan, et al.,
No. 14-0874 (MAS) (D.N.J. Oct. 2, 2017) (unpublished opinion).
APPENDIX E:
Opinion of the District Court - Roy L. Rambo, Jr. v. Patrick A. Nogan, et al.,
No. 14-0874 (MAS) (D.N.J. Sept. 1, 2017) (unpublished opinion).
APPENDIX F:
Opinion of the Appellate Division — PCR Appeal — State of New Jersey v. Roy
L. Rambo, Jr., No. A-0382-10T2 (N.J. App. Div. 2013) (unpublished opinion).
APPENDIX G:
Opinion of the Appellate Division - Criminal Appeal - State of New Jersey v.
Roy L. Rambo, Jr., 401 N.J. Super. 506 (App. Div. 2008).
APPENDIX H:
Opinion of the Appellate Division - Chancery Appeal - In re Estate of Rambo,
No. 5308-09 (N.J. App. Div. 2012) (unpublished opinion).
APPENDIX I:
Opinion/Transcript of the Chancery Division - Oct. 15, 2003.
APPENDIX J:
Excerpts From Other State and Federal Decisions That Conflict With The
Holdings In This Mater.

vi

TABLE OF AUTHORITIES
Page
Cases
Andersen v. Treat, 172 U.S. 24 (1898)

14

Appel v. Horn, 250 F.3d 203 (3d Cir. 2001)

27

Armstrong v. Bray, 64 Wash. App. 736, 826 P.2d 706 (1992)..............................

34

Bennett v. Superintendent Graterford SCI, et al., 886 F.3d 268 (3d Cir. 2018)

26

Caplin & Drysdale, Chartered v. United States, 491 U.S. 617 (1989)............... passim
Estate of Castiglioni, 40 Cal. App. 4th 367, 47 Cal. Rptr. 2d 288 (Cal. Ct. App.
1995)........................................................................................................................

34

Estate of McGowan, 35 Cal. App. 3d 611, 111 Cal. Rptr. 39 (Cal. Ct. App.
1973).................................................................................... :.........................

34

Farmers' & Mechanics' Nat'l Bank v. Dearing, 91 U.S. 29 (1875)

22

Garza v. Idaho, 586 U. S.

14

, 139 S. Ct. 738 (2019)

Gideon v. Wainwright, 372 U.S. 335 (1963)

2, 28, 29

Harrington v. Richter, 562 U.S. 86 (2011)

25

Hartford Life and Accident Ins. Co. v. Adviento, Civ. No. 16-00565 (HG-RLP)
(D.Haw. July 10, 2018)....................................................;.................................

34

In re Estate ofRambo, No. A-5308-09 (N.J. App. Div. 2012)................................

9, 30

In re Steven Craig Powell, Debtor, No. 14-43428, 2015 Bankr LEXIS 1385

34

In the Matter of the Estate of Linda Ann Rambo, Deceased, 212 N.J. 430
(2013)............................................................................................................

10

Jacobson v. Jacobson, 151 N.J. Super. 62 (N.J. App. Div. 1977)

28

Johnson v. Williams, 568 U.S. 289 (2013)
Kernan v. Cuero, 583 U.S.

(2017)

13

Leavy, Taber, Schultz & Bergdahl v. Metro. Life Ins. Co., 20 Wn. App. 503,
581 P.2d 167 (Wash. Ct. App. 1978)..........................................................
Luis v. United States, 578 U.S.

25, 26, 31

., 136 S. Ct. 1083 (2016)
Vll

34
passim

New York Life Ins. Co. v. Estate of Powell, C12-5184 (RBL) (W.D. Wa. May
14, 2014)............................................................................................................

34

Padilla v. Kentucky, 559 U.S. 356 (2010)..............................................................

14

Planned Parenthood of Southeastern Pa. v. Casey, 505 U.S! 833 (1992).......

3

Powell v. Alabama, 287 U.S. 45 (1932)..................................................................

passim

Rivers v. Roadway Express, Inc., 511 U.S. 298 (1994)
Roy L. Rambo v. Administrator East Jersey State Prison, et al., 762 Fed.
Appx. 105 (3d Cir. Jan. 30, 2019)............................................................

36

1, 10, 21

Roy L. Rambo v. Administrator East Jersey State Prison, et al., No. 20-2196
(3d Cir. Oct. 19, 2020)......................................................................................

1, 13

Roy L. Rambo v. Patrick Nogan, Administrator, East Jersey State Prison, et
al., No. 18-8871,___U.S.___ , 139 S. Ct. 2701 (2019)..............................

12, 37

Roy L. Rambo, Jr. v. New Jersey, No. 08-9187, 556 U.S. 1225 (2009)

8, 37

Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Feb.
29, 2020).................................................................................................................

1, 12

Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Oct.
2, 2017)..................................................................................................................

2, 10

Roy L. Rambo, Jr, v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J.
Sept. 1, 2017)...............................................................................................

2, 10

Roy L. Rambo, Jr., v. Estate of Linda Ann Rambo, Deceased, No. 12-8177, 571
U.S. 1237 (2014)................................................................................................... 10, 37
State of New Jersey v. Roy L. Rambo, Jr., 197 N.J. 258 (2008)

8

State of New Jersey v. Roy L. Rambo, Jr., 216 N.J. 5 (2013)

9

State of New Jersey v. Roy L. Rambo, Jr., 401 N.J. Super. 506 (N.J. App. Div.
2008)....................................................................................................................... 8, 9, 31
State of New Jersey v. Roy L. Rambo, Jr., No. 02-12-0472, (N.J. App. Div.
2013)................................................................................................................

32

Sullivan v. Louisiana, 508 U.S. 275 (1993)

24

Timbs v. Indiana, 586 U.S.___(2019)

23

vm

United States v. Cronic, 466 U.S. 648 (1984)................................... ..........

24

United States v. Gonzalez-Lopez, 548 U.S. 140 (2006)...............................

passim

United States v. Mendoza-Salgado, 964 F.2d 993 (10th Cir. 1992).........

24

United States v. Monsanto, 491 U.S. 600 (1989).........................................

passim

United States v. One 1936 Model Ford V-8 De Luxe Coach, 307 U.S. 219
(1939)............................................................................ '.....................

22

United States v, Purnett, 910 F.2d 51 (2d Cir. 1990)

29

United States v. Stein 541 F.3d 130 (2d Cir. 2008)...

19

Weaver v. Massachusetts, 582 U.S.

15

, 137 S. Ct. 1899 (2017)

Wheat v. United States, 486 U.S. 153 (1988)

14, 20

Wiggins v. Smith, 539 U.S. 510 (2003)

21

Wilson v. Seller,

30

U.S.__ , 138 S. Ct. 1188 (2018)

Ylst v. Nunnemaker, 501 U.S. 797 (1991)

30

Statutes
18 U.S.C. § 1345

36

28 U.S.C. § 1254(1)

2

28 U.S.C. § 1257(a)

2

28 U.S.C. § 2254(a)

13

28 U.S.C. § 2254(d)(1), (2)

3, 13

52 U.S.C. § 30109(a)(6)(B)

33

N.J.S.A. § 3B: 7-1, et seq. (1982)

passim

N.J.S.A. § 3B:7-1.1 et seq. (2004)

4

IX

Other Authorities
Federal Habeas Manual 3:29 (2017)

21

Restatement (Third) of Property (Wills & Don. Trans.) § 8.4 (2003)

34

Uniform Probate Code § 2-803............................................................

32

Rules
N.J.R.Ct. 2:ll-3(e)(l)(E)

30

Constitutional Provisions
U.S. Const, amend. I

2, 39

U.S. Const, amend. V

2, 12, 14, 39

U.S. Const, amend. VI

passim

U.S. Const, amend. VIII

3, 23, 39

U.S. Const, amend. IX

3, 38, 39

U.S. Const, amend. XIV

3, 12, 39

U.S. Const, art. VI, Cl. 2

38, 39

x

No.

IN THE
SUPREME COURT OF THE UNITED STATES
ROY L. RAMBO, JR

*9

Petitioner,
v.
ADMIN. EAST JERSEY STATE PRISON, ET AL •9
Respondents.
PETITION FOR A WRIT OF CERTIORARI
Petitioner, Roy L. Rambo, Jr. (“Dr. Rambo”), respectfully petitions for a writ
of certiorari to review two judgments from the United States Court of Appeals for
the Third Circuit ("Third Circuit") in this case. See Roy L. Rambo v. Administrator
East Jersey State Prison, et al., No. 20-2196 (3d Cir. Oct. 19, 2020) and Roy L.
Rambo v. Administrator East Jersey State Prison, et al., 762 Fed. Appx. 105 (3d Cir.
Jan. 30, 2019).
DECISIONS BELOW
The opinions from the Third Circuit, dated October 19, 2020 and January 30,
2019, are not reported and are attached as Appendix A and Appendix C
respectfully. A dispositive opinion by the District Court of New Jersey ("District
Court") denying Dr. Rambo’s habeas corpus petition, Roy L. Rambo, Jr. u. Patrick A.
Nogan, et al., No. 14-0874 (MAS) (D.N.J. Feb. 29, 2020), is attached as Appendix B.
Two previous non-dispositive decisions by the District Court granting Dr. Rambo’s

1

habeas corpus petition, Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874
(MAS) (D.N.J. Oct. 2, 2017) and Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No.
14-0874 (MAS) (D.N.J. Sept. 1, 2017), are attached as Appendix D and Appendix E
respectively.
JURISDICTION
The Third Circuit entered a non-precedential, dispositive judgment in this
case on October 19, 2020. A prior non-precedential judgment entered on January 30,
2019 reversed the District Court's decision of September 1, 2017 to grant Dr.
Rambo's habeas petition on a counsel of choice violation. No petitions for rehearing
were filed. This petition is being filed within 90 days after entry of the final
judgment below, so it is timely under Rule 13.1. The jurisdiction of this Court rests
on 28 U.S.C. § 1254(1) and 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment to the United States Constitution provides:
Congress shall make no law ... abridging the freedom of
speech, or ... to petition the Government for a redress of
grievances.
The Fifth Amendment to the United States Constitution provides:
No person shall... be deprived of life, liberty, or property,
without due process of law; ...
The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right...
to have the Assistance of Counsel for his defence.1
1 The Sixth Amendment is applicable to the States through the Fourteenth
Amendment. See Gideon v. Wainwright, 372 U.S. 335, 342-345 (1963).
2

The Eighth Amendment to the United States Constitution provides:
Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted.
The Ninth Amendment to the United States Constitution provideds:
The enumeration in the Constitution, of certain rights, shall
not be construed to deny or disparage others retained by the
people.
The Fourteenth Amendment to the United States Constitution provides:
No State shall... deprive any person of life, liberty, or
property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws. 2

STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 2254(d).
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in the
State court proceedings unless the adjudication of the claim (1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
N.J.S.A. § 3B: 7-1, et seq. (1982):
A surviving spouse ... who criminally and intentionally kills the
decedent is not entitled to any benefits under a testate or intestate
estate and the estate of decedent passes as if the killer had
predeceased the decedent. Property appointed by the will of the
2 As interpreted by this Court, the Fourteenth Amendment protects both the
substantive and procedural due process rights of individuals. See Planned
Parenthood of Southeastern Pa. u. Casey, 505 U.S. 833, 846-847 (1992).

3

decedent to or for the benefit of the killer passes as if the killer had
predeceased the decedent. 3
STATEMENT OF THE CASE
Since the inception of this case in 2002, the "elephant-in-the-room"
controversy has been over untainted money and property needed to retain
counsel of choice for a criminal trial. Dr. Rambo vehemently claims that he had a
federal Constitutional right to use his legitimately earned assets to employ his
desired attorneys to defend the criminal case. He claims a Chancery (Probate)
Division wrongfully placed a restraining order on his lawful assets prior to the
criminal trial. That violation, which obstructed his Sixth Amendment counsel of
choice protection, constitutes a "structural error” that requires his conviction to be
vacated.
On August 16, 2002, Dr. Rambo was charged with first degree murder of his
wife ("Linda") in the New Jersey Superior Court, Law Division. He was deprived of
his Sixth Amendment right to retain the private counsel of his choice when only
days later, on August 28, 2002, the first of three Chancery judges ordered that:
[A] 11 assets owned individually or jointly with the decedent by
Roy L. Rambo are (1) frozen, wherever located; and further that
(2) Roy L. Rambo or any of his agents or representatives is enjoined
from entering onto any property owned either jointly or individually by
3 The "Slayer Statute" was ostensibly intended to codify New Jersey common law.
The statute has since been repealed in 2004 and amended under N.J.S.A. § 3B:7-1.1
et seq. (2004) precisely in line with the property divisions argued by Dr. Rambo.
Section 3B:7-1.1(b)(2) specifically "severs the interests of the decedent and the killer
in property held by them at the time of the killing as joint tenants with the right of
survivorship or as tenants by the entireties, transforming the interests of the
decedent and killer into tenancies in common. (Emphasis added).

4

Roy L. Rambo and Linda Ann Rambo; and further that (3) Roy L.
Rambo is enjoined from expending any sums of money owned
individually or as a marital asset. (Emphasis added.)4
Dr. Rambo was a dentist and the primary income producer during the
majority of the 29-year marriage. Most of the assets owned by the Rambos were
held as tenancy by the entirety, or in joint tenancy, with an estimated value of
$3,000,000.00. The restraining order that banned Dr. Rambo's access to his one-half
share of the substantial personal and marital assets was in response to a motion
filed by their adult son ("Bruce"), predicated on N.J.S.A. § 3B:7-1, et seq. (1982), the
so called “Slayer Statute.” Bruce argued that that under the statute's legal fiction.
Dr. Rambo was presumed to have predeceased Linda. Therefore, the Chancery
Division was authorized to freeze 100% of the marital and individual assets because
they "may ultimately" belong to Linda's estate. Her intestate estate would then pass
to Bruce as her sole descendent.
Dr. Rambo was in custody without counsel. After he was fictitiously
transformed into a pauper and barred from using his own financial resources to hire
an attorney, he applied to the State Public Defender for appointment of counsel in
his criminal case. His application was denied because the Public Defender
concluded that he had assets - i.e., an estate that included both personal and
marital assets - that should be used to hire private counsel. On September 19,
2002, an “Attorney Clarification” hearing was conducted by the Honorable John H.

4 The entirety of Dr. Rambo's individual and marital assets remained frozen
pending a verdict in the criminal matter.
5

Pursel, J.S.C., the Law Division judge assigned to the criminal case. Dr. Rambo
explained his dilemma, i.e., he did not qualify for appointment of counsel because he
had assets, but could not access those assets to hire a lawyer because the Chancery
judge had “enjoin[ed] him from expending any sums of money owned individually or
as a marital asset.” Judge Pursel expressed his disbelief and explained that the
assets were frozen in part to protect Dr. Rambo’s interest in the estate, but not to
preclude him from using his own assets to hire a lawyer.
You can liquidate some assets and pay an attorney.... The assets are
accessible to you if you make an application to the [Chancery] court....
Well, you’re mistaken on that fact, Dr. Rambo. The funds were frozen
for - for your protection.... An application may be made to the
[Chancery] court to release those funds to hire private counsel.
Judge Pursel assured Dr. Rambo that upon request, sufficient assets would
be provided to hire counsel, consistent with the requirements of the Sixth
Amendment.
Your assets are available. Your position is not sound.... [The Chancery
judge] froze your assets to protect them.... Not to prevent you from
hiring an attorney.... Civil litigation takes a back seat to your
[criminal] litigation.... It takes a front seat to other creditors.
Judge Pursel, nevertheless, conditionally ordered the Public Defender's Office
to provide counsel for Dr. Rambo in the criminal case. Several months later,
following Dr. Rambo's request for new counsel and bail, Judge Pursel remarked:
[S]ince the beginning of this case I - I’ve - I’m not troubled with what
[the Chancery judge] did, but I don’t know any precedent that allows
somebody to freeze a criminal suspect’s assets.... I'm just am astounded
by that.... [T]here’s still a presumption of innocence in America. And
Mr. Rambo - Dr. Rambo, excuse me, should have access to funds which
he needs to provide for his defense.

6

On October 15, 2003, before a second Chancery judge, a hearing was
conducted to address Dr. Rambo’s renewed request to release his funds so he could
retain two certified criminal defense attorneys - William T. Harth, Jr., Esq. and
Edward R. Wiercinski, Esq. - to represent him in the criminal case. (Appendix I).
The judge abruptly cut off counsel's Sixth Amendment counsel of choice argument
to discuss the Slayer Statute. The judge then disposed of the counsel of choice issue,
concluding that because an attorney had been assigned by the Public Defender, Dr.
Rambo’s Sixth Amendment rights were vindicated. Regarding the counsel of choice
right, the judge noted an irrelevant truism - “And although there is a Sixth
Amendment right, that right is ... not a[n] absolute right,” and conflated the right
to counsel of choice and the right to the appointment of counsel for an indigent
person. “Obviously the doctor will have ... an opportunity to have counsel, whether
it’s counsel that he pays for or whether [it is] counsel that is provided to him." Id.
The judge went on to rule that “In the circumstances of this case[,] I conclude
that the funds from the sale of the ... farm are to be held in trust and are not
available to Dr. Rambo for purposes of his defense in the criminal matter.... [The
proceeds will] be held in trust pending the outcome of the criminal proceedings." Id.
Although the judge did not specifically discuss the proceeds from the sale of Dr.
Rambo's dental practice and building in relation to the Sixth Amendment, he
decided that the proceeds from the sale of their farm property "should be held in
trust in the same way [as] the proceeds from the sale of the dental practice
building," indicating that Dr. Rambo would be denied access to all proceeds from the

7

sales of the marital real estate that he needed to retain defense counsel, a private
investigator, and the necessary experts to defend the criminal matter. Id.
Facing the prospect of inferior representation by the court appointed
attorneys in the criminal matter, Dr. Rambo reluctantly chose “out of necessity” to
proceed pro se when the case went to trial in February 2005 - clearly a "Hobson's
choice" decision. Just prior to the criminal trial on December 13, 2004, a third
Chancery judge decided that an equitable distribution hearing would be
conducted to determine Dr. Rambo’s portion of the marital assets after the
resolution of the criminal proceeding.
Following the conviction and the imposition of a 40-year sentence, Dr. Rambo
continued to assert his Sixth Amendment right to counsel of choice claim. He raised
the issue on direct appeal from the conviction. See State of New Jersey v. Roy L.
Rambo, Jr., 401 N.J. Super. 506 (App. Div. 2008); (Appendix G). The Appellate
Division rejected Dr. Rambo’s Sixth Amendment claim and his motions to expand
the appellate record to include the Chancery Division proceedings on jurisdictional
grounds, noting that the only case on appeal was the criminal case, so examination
of the Chancery Division decisions was beyond their reach. Id. Both the New Jersey
and United States Supreme Courts declined Dr. Rambo’s further appeals of the
criminal matter. See State of New Jersey v. Roy L. Rambo, Jr., 197 N.J. 258 (2008),
cert, denied Roy L. Rambo, Jr. v. New Jersey, No. 08-9187,-556 U.S. 1225 (2009).
On March 23, 2009, Dr. Rambo filed an application for post-conviction relief
(“PCR“) in New Jersey Superior Court, Law Division. Again, both the Law and

8

Appellate Divisions declined to address the merits of Dr. Rambo’s Sixth Amendment
counsel of choice claim because the Chancery Division decisions were not part of the
criminal case. See State of New Jersey u. Roy L. Rarrtbo, Jr., No. A-0382-10T2 (N.J.
App. Div. 2013)(unpublished opinion); (Appendix F). On September 17, 2013, the
New Jersey Supreme Court declined his request for review. See State of New Jersey
v. Roy L. Rambo, Jr., 216 N.J. 5 (2013).
In the interim, the Chancery Division issued a final judgment on May 17
2010, ordering:
(1) “That [Dr. Rambo] shall be and is hereby awarded by way of
equitable distribution of the marital assets the sum of $290,314.51;”
and (2) “That the debt of $6,000,000 [representing a wrongful death
judgment obtained after the criminal conviction], not including
interest, which [Dr. Rambo] owes the Estate [of Linda Rambo], shall be
credited $290,314.51, making the debt owed to the Estate
$5,709,685.49, not including interest.5
The Appellate Division denied Dr. Rambo’s appeal of the entire Chancery
matter with only a brief reference to the Slayer Statute, and without any discussion
of the Sixth Amendment counsel of choice issue, except to say that the arguments
“lack[ed] sufficient merit to warrant a discussion in a written opinion.” See In re
Estate of Rambo, No. A-5308-09 (N.J. App. Div. 2012)(unpublished opinion);
(Appendix H). Both the New Jersey and United States Supreme Courts declined Dr.
Rambo’s further appeals of the Chancery Division case. See In the Matter of the

5 Throughout the entire Chancery proceedings, Dr. Rambo was not awarded any
compensation for the real estate that he lawfully owned by the entireties prior to
the alleged criminal act. That value of the properties would equal at least four times
the amount awarded by way of "equitable distribution" on May 17, 2010.
9

Estate of Linda Ann Rambo, Deceased, 212 N.J. 430 (2013) cert, denied Roy L.
Rambo, Jr., v. Estate of Linda Ann Rambo, Deceased, No. 12-8177, 571 U.S. 1237
(2014).
On February 11, 2014, Dr. Rambo filed a petition for a writ of habeas corpus
in the District Court. Among the issues raised was the claim that his Sixth
Amendment right to counsel of choice was violated by the Chancery Division's
orders that denied him access to the funds needed to retain criminal defense
counsel. After extensive briefing by both sides, the Honorable Michael A. Shipp,
U.S.D.J. granted Dr. Rambo’s petition on this single issue, and ordered that he
either be retried or released. See Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No.
14-0874 (MAS) (D.N.J. Sept. 1, 2017); (Appendix E). The District Court denied the
State’s motion for reconsideration, but granted a stay pending appeal. See Roy L.
Rambo, Jr. u. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Oct. 2, 2017);
(Appendix D). The State appealed to the Third Circuit.
Following oral argument on March 14, 2018, and the submission of
supplemental briefs on April 9, 2018, the Third Circuit issued a non-precedential
opinion on January 30, 2019 reversing the District Court's decision. The matter was
remanded for consideration of the remaining arguments raised in Dr. Rambo’s
petition. See Roy L. Rambo v. Administrator East Jersey State Prison, et al., 762
Fed. Appx. 105 (3d Cir. Jan. 30, 2019); (Appendix C). In its opinion, the Third
Circuit clearly identified the particular claim presented by Dr. Rambo - whether
the state court's freezing of an individual's untainted assets under the slayer

10

statute could violate the Sixth Amendment right to counsel of choice. However, the
Third Circuit determined that that particular issue presented had not been
addressed by the United States Supreme Court when the District Court granted
relief. Id. The Third Circuit also concluded that a passing reference to the Sixth
Amendment by the Chancery judge on October 15, 2003 was an adjudication on the
merits of Dr. Rambo’s right to counsel of choice claim and the judge's decision was
not clearly contrary to Supreme Court case law that existed at the time the
conviction became final on May 4, 2009. Id.
To reach this result, the Third Circuit reasoned that the Slayer Statute
restraint of funds that Dr. Rambo needed to retain his desired counsel was different
than the financial restraints at issue in earlier Supreme Court cases, i.e., Caplin &
Drysdale, Chartered v. United States, 491 U.S. 617, 624, 626 (1989) and United
States v. Monsanto, 491 U.S. 600, 602-606, 615-616 (1989). The Third Circuit then
concluded that the decision by the Chancery Court to freeze Dr. Rambo’s personal
assets did not clearly violate the core constitutional right that he sought to exercise.
“Rambo's purported Sixth Amendment right, however, is different than the right at
issue in Caplin and in Monsanto [because his] claim had nothing to do with an
interest in property that was subject to Governmental seizure because of its nexus
to alleged illegal activity.” Id.
To the contrary, “Rambo’s purported Sixth Amendment right” was no
different than the core Constitutional protection that was asserted in those
earlier cases, i.e. the right to use one’s assets to retain counsel of choice. What was

11

different was that the source of money in Caplin & Drysdale and Monsanto was
“tainted” because it was derived from criminal conduct. For that reason only, the
assets were subject to forfeiture under a long recognized theory that vested title to
the assets in the government of the United States upon commission of the crime. By
blindly accepting the propriety of the state statutory restraint rather than
focusing on the firmly established constitutional right to employ counsel of
choice, the Third Circuit perverted the issue into terms of whether this Court had
previously addressed a Slayer Statute, rather than whether the restraint of lawful
assets infringed on Dr. Rambo’s clearly established constitutional right to retain his
desired private attorneys.
Dr. Rambo filed a petition for a writ of certiorari, which was denied on June
10, 2019. See Roy L. Rambo v. Patrick Nogan, Administrator, East Jersey State
Prison, et al., No. 18-8871

U.S.

., 139 S. Ct. 2701 (2019). On remand, Judge

Shipp entered a final order and opinion, dated February 29, 2020, denying Dr.
Rambo's petition and declining to issue a Certificate of Appealability ("COA"). See
Roy L. Rambo, Jr. v. Patrick A. Nogan, et al., No. 14-0874 (MAS) (D.N.J. Feb. 29,
2020); (Appendix B). Judge Shipp rejected most of Dr. Rambo's claims by simply
echoing the Third Circuit's opinion that there was no "clearly established Supreme
Court precedent, at the time the state courts rendered their decisions, addressing
whether a slayer statute used to freeze an individual's assets violates a petitioner's
Fifth, Sixth, or Fourteenth Amendment rights." Id. The District Court further held
that Dr. Rambo’s claims were not "contrary to, or involved an unreasonable

12

application of, clearly established Federal law, as determined by the Supreme Court
of the United States." Id. See Kernan v. Cuero, 583 U.S.

(2017), reh'g denied,

138 S. Ct. 724 (2018)(citing 28 U.S.C. § 2254(d)(1)). Judge Shipp denied the
remaining claims because the issues concerned state law only, and/or on
Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA") grounds. Id. Dr.
Rambo filed an application for a COA to the Third Circuit.
On October 19, 2020, the Third Circuit entered a dispositive judgment
summarily denying Dr. Rambo's application for a COA. See Roy L. Rambo v.
Administrator East Jersey State Prison, et al., No. 20-2196 (3d Cir. Oct. 19, 2020).
Dr. Rambo now seeks a writ of certiorari before this Court.
REASONS FOR GRANTING THE PETITION
This Court should grant certiorari because the Third Circuit’s decisions:
(1) are at odds with the original understanding of the Sixth Amendment right to
counsel; (2) conflict with this Court’s right to counsel of choice precedents;
(3) conflict with this Court's precedent that forfeitures are not favored and should
be enforced only when within both the letter and spirit of the law; (4) failed to grant
relief under 28 U.S.C. § 2254(a) where the habeas petitioner "is in custody in
violation of the Constitution or laws of the United States;".and (5) without clear
direction from this Court, the Sixth Amendment right to counsel of choice is at risk
of further erosion through state and federal statutory schemes that seek to restrain
lawfully acquired U.S. currency (and property derived from that currency), while
appointed counsel substitutes reduce the Constitutional protection to an illusory

13

promise. This petition should also be granted to clarify the application of the socalled "look through doctrine" as applied to a fundamental constitutional right.
I.

The Third Circuit And New Jersey Decisions In This Matter
Conflict With Controlling Supreme Court Precedent That Should
Have Provided Unequivocal Guidance For The New Jersey
Chancery Division To Release Dr. Rambo’s Assets So He Could
Exercise His Sixth Amendment Right To Retain Counsel Of His
Choice.
The Fifth Amendment provides that "[n]o person shall... be deprived of life,

liberty, or property, without due process of law[.]" The Sixth Amendment provides
that “[i]n all criminal prosecutions, the accused shall enjoy the right... to have the
Assistance of Counsel for his defence.” As originally understood, the Sixth
Amendment right to counsel “meant only that a defendant had a right to employ
counsel, or to use volunteered services of counsel.” Garza v. Idaho, 586 U. S.
(2019) (Thomas, J., dissenting and quoting Padilla v. Kentucky, 559 U.S. 356,
389 (2010) (Scalia, J., dissenting) (emphasis added)). The right to counsel of choice
does more than protect the right to a fair trial, it “has been regarded as the root
meaning of the constitutional guarantee.” United States v. Gonzalez-Lopez, 548 U.S.
140, 147-148 (2006). See Wheat v. United States, 486 U.S. 153, 159 (1988); Andersen
v. Treat, 172 U.S. 24 (1898). This Court has “previously held that an element of this
right is the right of a defendant who does not require appointed counsel to choose
who will represent him.” Gonzalez-Lopez, 548 U.S. at 144; Wheat, 486 U.S. at 159;
cf. Powell v. Alabama, 287 U.S. 45 (1932). The Sixth Amendment “commands, not
that a trial be fair, but that a particular guarantee of fairness be provided - to wit,
that the accused be defended by the counsel he believes to be best.” Gonzalez-Lopez,

14

548 U.S. at 146. Furthermore, a depravation of counsel of choice constitutes a
structural error that is "complete" when the defendant is erroneously prevented
from being represented by the lawyer he wants, regardless of the quality of the
representation he received. Id. at 149-151.6 Cf. Weaver v. Massachusetts, 582 U.S.
, 137 S. Ct. 1899 (2017).
When the Third Circuit reversed the District Court's decision to grant Dr.
Rambo’s habeas corpus petition, the Court focused on whether a state Slayer
Statute restraint had ever been addressed by the Supreme Court and failed to
appreciate the substance of the Constitutional right at issue. (Appendix C). As a
result, the Third Circuit erroneously determined that the decision by the Chancery
Division to deny Dr. Rambo’s access to the money and property that he needed to
retain counsel was entitled to deference because there was no clearly established
Supreme Court precedent involving a state slayer statute at the time the state court
confronted the issue. Id. The Third Circuit further erred when it concluded that the
District Court misapplied the law as it existed at the time the conviction became
final - May 4, 2009 - and that the United States Supreme Court decision in Luis v.
United States, 578 U.S.

., 136 S. Ct. 1083 (2016), which focused on legitimate,

untainted assets, could not be relied upon because it was announced after Dr.
Rambo’s conviction became final. Id. In other words, the Third Circuit theorized
that the Supreme Court must render a decision stating that legitimate, untainted

6 The District Court found that “The Chancery Court order freezing Petitioner's
assets and denial of Petitioner's motion to release assets to fund his criminal
defense caused the constitutional violation in the criminal case.” (Appendix D.)
15

assets may not be restrained under a state slayer statute before Dr. Rambo, or any
other criminal defendant, could use his/her lawful assets to retain desired counsel
for a criminal matter. The Third Circuit's theory is absolutely misplaced. This Court
is not required to create an exhaustive list of authorized expenditures before an
individual can use their untainted currency or property for any lawful purpose,
especially to exercise a clearly established Constitutional right to employ criminal
defense representation.
In Luis, the plurality held the government's pretrial seizure of legitimate,
untainted assets to secure payment of potential criminal forfeitures or restitution, if
the defendant was convicted, violates the Sixth Amendment when those assets are
needed to retain defense counsel of choice. Id. at 1088. Nevertheless, the Third
Circuit determined that regardless of the relevance of Luis and the District Court’s
reference to Luis, both represent extensions of existing precedent and could not be
applied to Dr. Rambo. Clearly, the Third Circuit failed to recognize that even prior
to the Chancery court’s restraints on Dr. Rambo’s assets, this Court held that the
Sixth Amendment grants a defendant “a fair opportunity to secure counsel of his
own choice." Powell v. Alabama, 287 U.S. at 53.
Likewise, the Sixth Amendment right to assistance of counsel is a
fundamental constituent of due process of law, id. at 68-69; and that right includes
“the right to be represented by an otherwise qualified attorney whom that
defendant can afford to hire." Caplin & Drysdale, 491 U.S. at 624 (1989); Monsanto,
491 U.S. 600 (1989). The Chancery restraint at issue in this case fatally

16

undermined that fundamental constitutional protection. The District Court properly
applied existing and clearly established federal law, as determined by this Court in
Caplin & Drysdale and Monsanto, when it decided to grant habeas relief to Dr.
Rambo on September 1, 2017. (Appendix E). That decision should have been
affirmed by the initial decision of the Third Circuit. (Appendix C).
The fundamental problem with the Third Circuit’s Sixth Amendment
analysis is that it misapprehends the history of the counsel of choice jurisprudence.
Instead of starting as the District Court did from the well-established principle that
the Sixth Amendment protects a non-indigent person’s right to use his own funds to
retain the best lawyer s/he can afford, the Third Circuit, in effect, concluded that
this Court's decisions in Caplin & Drysdale and Monsanto marked the starting
point for the controlling constitutional analysis. The question in those cases,
however, was whether the then novel-forfeiture statutes which impeded access to
criminally derived “tainted” assets violated the clearly established Sixth
Amendment right to employ private counsel. The establishment of that core
right was never in question when this Court relied upon a well-established property
law concept concerning criminally derived assets to uphold the application of the
specific forfeiture statutes. See Caplin & Drysdale, 491 U.S. at 626; Monsanto, 491
U.S. 600 (1989).
The Caplin & Drysdale and Monsanto decisions were premised on the longrecognized “taint” theory - when there is probable cause to believe the assets are
proceeds of, or traceable to, the criminal charges, the defendant’s property interest

17

in the asset is greatly diminished. Title vests in the United States upon commission
of the criminal act. Caplin & Drysdale, 491 U.S.at 627, 629. Though the defendant
may possess the property, he does not have a legitimate claim to the “tainted” class
of assets, and whatever theoretical interest he might have is outweighed by strong
governmental interests. Id. at 629, 631. This Court's precedent made it clear that a
financial restraint is permissible only when there is probable cause to believe the
assets are “tainted,” i.e. they were unlawfully acquired and did not lawfully belong
to the defendant. Id.; Monsanto, 491 U.S. at 616.
Instead of focusing on Dr. Rambo’s Constitutional right and the lawful source
of his funds, the Third Circuit contorted the issue into a question of whether this
Court ever had an occasion to consider whether a slayer statute-based restraint on
lawfully acquired assets violated the Constitution. (Appendix C). That is, the Third
Circuit failed to appreciate that the questions in Caplin & Drysdale and Monsanto
were whether a restraint on criminally derived funds was permissible under the
Constitution — not whether the Sixth Amendment right to use one’s lawful assets to
employ counsel of choice was clearly established. In the instant case, by failing to
adjudicate the propriety of the financial restraints and the attendant violations to
the core Constitutional right, the Third Circuit turned the history and analysis of
the counsel of choice right on its head. Moreover, the Third Circuit simply presumed
Dr. Rambo was guilty before the trial and did not warrant representation of his
desired private attorneys.
The original understanding of the Sixth Amendment and this Court's

18

precedents prior to Caplin & Drysdale and Monsanto clearly established that a
criminal defendant may not be prevented from using his/her assets to hire counsel
of choice. See e.g. Powell v. Alabama, 287 U.S. at 52-53 (“However guilty
defendants, upon due inquiry, might prove to have been, they were, until convicted,
presumed to be innocent. It was the duty of the court having their cases in charge to
see that they were denied no necessary incident of a fair trial.... It is hardly
necessary to say that, the right to counsel being conceded, a defendant should be
afforded a fair opportunity to secure counsel of his choice.”) See also United States v.
Stein 541 F.3d 130, 155 (2d Cir. 2008) (“The holding in Caplin & Drysdale is
narrow: the Sixth Amendment does not prevent the government from reclaiming its
property from a defendant even though the defendant had planned to fund his legal
defense with it.”) Considered from this perspective, it is apparent that this Court in
both Caplin & Drysdale and Monsanto simply recognized that while the Sixth
Amendment protects a defendant’s right to spend his own money to pay a lawyer, it
does not create a right to Spend someone else’s money, i.e. money derived from
criminal activity subject to forfeiture. Caplin & Drysdale, 491 U.S. at 624;
Monsanto, 491 U.S. 600. Those decisions, therefore, did nothing to alter the wellestablished Constitutional principle that is at issue here: whether Dr. Rambo had a
Sixth Amendment right to use his own untainted money to employ counsel. See
\

Caplin & Drysdale, 491 U.S. at 626 (“Whatever the full extent of the Sixth
Amendment’s protection of one’s right to retain counsel of his choosing, that
protection does not go beyond the ‘the individual’s right to spend his own money to

19

obtain the assistance of... counsel.’” (internal quotation marks omitted)); Wheat,
486 U.S. at 159 (acknowledging that the Sixth Amendment guarantees the right to
choose own counsel, but not one defendant cannot personally afford).
The two decisions by the Third Circuit, therefore, are fundamentally flawed
because they failed to apply the clearly established law, in accordance with Powell,
Caplin & Drysdale, and Monsanto, that should have framed its analysis of Dr.
Rambo’s request for the Chancery Division to release his portion of the assets.
Above all, the right to counsel of choice does more than protect the right to a fair
trial, “it has been regarded as the root meaning of the Constitutional guarantee.”
Gonzalez-Lopez, 548 U.S.at 147-148. It was the same failure by the New Jersey
courts to acknowledge the fundamental right at stake that distracted them from the
relevant legal question, i.e., whether a court ordered restraint on untainted
personal assets violated Dr. Rambo’s Sixth Amendment right to spend his own
money to hire the attorneys of his choice. The District Court, by contrast, correctly
recognized that the New Jersey courts violated “the root of the constitutional
guarantee” from the moment the Chancery order was issued to preclude Dr. Rambo
from using his own money to hire counsel for his defense. For these reasons, Dr.
Rambo respectfully requests this Court to grant this petition for certiorari and
vacate the decisions by the Third Circuit.
II.

The District Court Did Not Improperly Rely On Luis v. United
States. Instead, The District Court Looked To Luis For Illustrative
Purposes Only.
On January 30, 2019, the Third Circuit concluded that the District Court

20

improperly relied on Luis v. United States, 578 U.S.

, 136 S. Ct. 1083 (2016), a

case decided after Dr. Rambo’s conviction became final. See Roy L. Rambo v.
Administrator East Jersey State Prison, et al., 762 Fed. Appx, 105 (3d Cir. Jan. 30,
2019); (Appendix C). The District Court addressed this issue when it denied the
State's motion for reconsideration by explaining that it used Luis:
[S]imply a[s] further illustration of the constitutional principles
addressed in Caplin and Monsanto. See Federal Habeas Manual 3:29
(2017) ("A Supreme Court case decided after the relevant state court
decision can be considered as illustrative of the proper application of
the constitutional principle at issue.") (citing as an example Wiggins v.
Smith, 539 U.S. 510, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003)). The
Caplin and Monsanto decisions addressed whether freezing "tainted"
assets was proper. Caplin, 491 U.S. at 626; Monsanto, 491 U.S. at 616.
The Luis case considered the protections afforded to "untainted" assets,
the inverse of the Caplin and Monsanto cases. See Luis, 136 S. Ct. at
1088. Accordingly, the state has not set forth a valid basis for
reconsideration and relief is denied on this ground.
(Appendix D).
While discussed by the District Court, the holding in Luis was not the basis
for its decision to grant Dr. Rambo’s habeas petition. Luis was simply an example of
how the principles that pre-dated Caplin & Drysdale and Monsanto retain the
fullest reach afforded by the Constitution. See also Gonzalez-Lopez, 548 U.S. at 150151 (discussing the fundamental nature of the right to counsel of choice and how the
protected interests differed from those protected by the right to effective assistance
of counsel). On this point, the State argued in its Motion for Reconsideration that
only Supreme Court case law in existence prior to the date the conviction became
final can be considered, unless a case decided after that date "illustrate [s] the
prior state of the law[.]" (See Dist. Ct. ECF No. 46, Resp't's Br. 10 (emphasis
added)). The Third Circuit overlooked the State's accurate legal argument that Luis
21

could be considered by the District Court for illustrative purposes. Furthermore,
during oral argument on March 14, 2018, the State also admitted that the Chancery
court could not have frozen Dr. Rambo's share of the marital assets had Luis been
decided earlier, which the Third Circuit failed to reconcile.
The District Court was correct. (Appendix D). The decision in Luis was not an
extension of Caplin & Drysdale or Monsanto and broke no new ground. Luis was
simply a logical application of the historic, core counsel of choice principles. Luis
merely confirmed that the restraints in Caplin & Drysdale and Monsanto marked
the outer limits on the “taint” concept and that only those assets specifically derived
from criminal activity were subject to restraint. Moreover, “for more than a century,
this Court has condemned the forfeiture of untainted property. "Forfeitures are not
favored; they should be enforced only when within both letter and spirit of the law."
United States v. One 1936 Model Ford V-8 De Luxe Coach, 307 U.S. 219, 226 (1939).
See also Farmers' & Mechanics' Nat'l Bank v. Dearing, 91 U.S. 29, 35 (1875) ("When
either of two constructions can be given to a statute, and one of them involves a
forfeiture, the other is to be preferred.") (Internal citations omitted). The District
Court’s understanding of Luis was correct: the decision did not establish a new rule,
but merely applied this Court's property and Sixth Amendment precedents that
existed at the time of Dr. Rambo’s case - a criminal defendant has the “right to
spend his own money to obtain the advice and assistance of counsel.” Caplin &
Drysdale, 491 U.S. at 625. The District Court properly concluded that the Chancery
Division restraints clearly interfered with that Constitutional right.

22

The question in Luis was whether the strong governmental interests served
by the statutory forfeiture framework outweighed the Sixth Amendment when the
“tainted” assets had been dissipated, and the restraint was applied to lawfully
acquired “substitute” assets. This Court concluded that the Sixth Amendment does
not permit a restraint in that circumstance because the “taint” theory can only
justify restraint if the asset was derived from the criminal activity because the
property never lawfully belonged to the defendant. Luis, 136 S. Ct. at 1093. The
decision, therefore, was not a new rule, but was instead a straightforward
application of the pre-Caplin & Drysdale/Monsanto Sixth Amendment precedent
that a defendant must be allowed a reasonable opportunity to use lawfully acquired
assets to retain counsel. Luis was important in terms of clarifying the reach of a
federal forfeiture statute when measured against the right to counsel of choice,
but announced nothing new relative to the use of lawfully acquired assets for
purposes of the Sixth Amendment. Compare, Timbs v. Indiana, 586 U.S.
(2019)(where this Court identified a violation of the Eighth Amendment's
prohibition against excessive fines when a state statute was invoked in Indiana
seeking forfeiture of the defendant's vehicle). However, the Sixth Amendment
counsel of choice question was not an issue in the Timbs case.
But, the issue in Dr. Rambo’s criminal and civil cases did not touch on the
question of “taint.” Rather, the issue was Dr. Rambo's right to use his one-half
portion of the marital assets to defend the criminal case. The very core of his Sixth
Amendment right to counsel of choice was at stake. Assuming for the moment that

23

the state court adjudicated Dr. Rambo’s Sixth Amendment claim, it resolved the
question in a manner that was clearly contrary to established constitutional law.
This Court previously obsreved that "[o]f all the rights that an accused person
has, the right to be represented by counsel is by far the most pervasive for it affects
his ability to assert any other rights he may have." United States v. Cronic, 466 U.S.
648, 654 (1984). "The deprivation of that right, with consequences that are
necessarily unquantifiable and indeterminate, unquestionably qualifies as
'structural error.'" Sullivan v. Louisiana, 508 U.S. 275, 281-282 (1993). Dr. Rambo
maintains that the depravation of the right to use one's untainted and legitimate
assets to employ counsel of choice for a criminal trial undoubtedly requires the same
scrupulous protections under the Sixth Amendment.
In Gonzalez-Lopez, this Court recognized the unique “differences in the
defense that would have been made by the rejected counsel [of choice] - in matters
ranging from questions asked on voir dire and cross-examination to such
intangibles as argument style and relationship with the prosecutors.” Id. at 151.
Lawyers are not fungible, and often the most important decision a defendant makes
in shaping his defense is his selection of an attorney. See United States v. MendozaSalgado, 964 F.2d 993, 1015-16 (10th Cir. 1992). With these "differences" in mind,
the record is clear that the Chancery orders prevented Dr. Rambo from using his
substantial assets to hire his desired private attorneys, thus forcing him to rely on
"different" counsel. During the pretrial proceedings, the first of these appointed
attorneys was described by the judge as “shameful” and the second appointed

24

attorney, Carolann Fritz, A.D.P.D. was replaced without explanation to Dr. Rambo
or on the record. Therefore, the importance of vigilant protection for Dr. Rambo's
right to employ his desired counsel resonates with particular clarity. Accordingly,
the District Court did not improperly rely upon the Luis decision when it correctly
concluded that the state court ordered restraint of funds that Dr. Rambo needed to
retain counsel for the criminal trial - his personal assets of at least $290,000.00
— violated the clearly established Sixth Amendment counsel of choice right.
(Appendix E). For this reason, Dr. Rambo respectfully requests this Court to grant
this petition for certiorari and vacate the decisions by the Third Circuit.
III.

The New Jersey Courts Did Not Adjudicate The Merits Of Dr.
Rambo’s Sixth Amendment Counsel Of Choice Claim.
In recent years, this Court has decided two cases that shed light on the

questions of “deference” and “merits adjudication.” First, in Harrington v. Richter,
562 U.S. 86 (2011), the Court held that where “a state court issues an order that
summarily rejects without discussion all of the claims - federal and state - raised
by a defendant,” the federal habeas court must presume that the federal claim was
adjudicated on the merits. Id. at 99. The Court clarified, however, that this
presumption may be overcome “when there is reason to think some other
explanation for the state court’s decision is more likely,” such as where a lower state
court previously resolved petitioner’s federal claims upon independent state law
grounds. Id. at 99-100 (citation omitted).
Second, in Johnson v. Williams, 568 U.S. 289, 292 (2013), this Court
determined that where the “state court rules against the defendant and issues an

25

opinion that addresses some issues but does not expressly address the federal claim
in question, e.g., the court is silent as to the reasons the federal claim is denied, the
same rebuttable presumption that the claim was adjudicated on the merits applies.”
The rebuttable presumption applies only “in the absence of any indication or statelaw principles to the contrary.” Id. at 298. The Court identified a non-exhaustive list
of “other explanations” sufficient to rebut a presumption of adjudication on the
merits. Id. at 301-03. Two of these other explanations include situations where a
state court based its decision on state law that is independent of and does not
subsume federal law or where the state court may have “inadvertently overlooked”
the federal claim that was raised. Id. at 303; accord Bennett v. Superintendent
Graterford SCI, et al., 886 F.3d 268, 283 (3d Cir. 2018).
An important criterion in assessing an adjudication on the merits is that:
“[a] judgment is normally said to have been rendered ‘on the merits’ if it was
‘delivered after the court... heard and evaluated the evidence and the parties’
substantive arguments.” Williams, 568 U.S. at 302 (emphasis in original) (citations
omitted). As used in this context, the word “merits” is defined as “the intrinsic
rights and wrongs of a case as determined by matters of substance, in
distinction from matters of form.” Id. (emphasis in original). Likewise, if a federal
claim is rejected as a result of sheer inadvertence, it has not been evaluated based
on the intrinsic rights and wrongs of the matter. In deciding that the claim in
Williams was not inadvertently overlooked or decided on state grounds, but was
adjudicated on the merits, this Court observed that the petitioner treated her state

26

and federal claims interchangeably, and the state court specifically addressed the
core elements of her federal claim, thus indicating that state law subsumed federal
law. Id.
In contrast, where federal claims were inadvertently overlooked or decided on
independent state grounds that did not subsume essential federal law principles “it
does not follow that they have been adjudicated ‘on the merits.’” Id. at 303.
Therefore, the presumption of adjudication on the merits can be rebutted “[w]hen
the evidence leads very clearly to the conclusion that a federal claim was
inadvertently overlooked in State court.” Id.. In that circumstance, “the prisoner is
entitled to an unencumbered opportunity to make his case before a federal judge.”
Id. See also e.g., Appel v. Horn, 250 F.3d 203, 210 (3d Cir. 2001) (No “merits
adjudication” where the state courts misconstrued the petitioner’s federal claim and
decided an issue he did not present, i.e. petitioner raised a Sixth Amendment claim
of constructive denial of counsel, but state courts decided it as if it were a claim of
ineffective assistance of counsel. “The two claims ... of course, are different.”)
Although there was a passing reference to Dr. Rambo’s Sixth Amendment
claim in the Chancery Division, a close examination of the record discloses that the
state court failed to evaluate “the intrinsic rights and wrongs” of the issue.
(Appendix I). The focus of the court was foreclosed by its misunderstanding and
erroneous application of the Slayer Statute. N.J.S.A. 3B:7-1, et seq. (1982). While
the argument on a motion to release the funds to hire counsel began with counsel’s
reference to the Sixth Amendment counsel of choice issue, the judge promptly

27

redirected the inquiry, “I don’t think you have to talk about the right to - the Sixth
Amendment right. I think what you need to talk about is why you’re entitled to
these particular assets” under the Slayer Statute. Id. Moreover, in denying the
motion, the court ignored the only New Jersey case that addressed the Sixth
Amendment counsel of choice issue before the court on the grounds that the Slayer
Statute (1982) - which supposedly codified New Jersey common law - was enacted
after the Sixth Amendment/common law based decision in -Jacobson u. Jacobson,
151 N.J. Super. 62 (N.J. App. Div. 1977). Instead, the court limited its inquiry to
why Dr. Rambo was entitled to any portion of his marital assets under the Slayer
Statute instead of why the Slayer Statute authorizes forfeiture of his assets and
failed to consider the long established Supreme Court precedent regarding the
fundamental nature of the right to counsel of choice. Id.
The Chancery judge ultimately dismissed the salient Sixth Amendment issue
by conflating Dr. Rambo’s specific Sixth Amendment right to counsel of choice claim
- the same right raised in Powell v. Alabama, 287 U.S. 45 (1932) — with an
indigent’s right to the appointment of counsel as raised in Gideon v. Wainwright,
372 U.S. 335 (1963). “And although there is a Sixth Amendment right, that right is
not - is not without some - is not a[n] absolute right. Obviously the doctor will have
a - an opportunity to have counsel, whether it’s a counsel that he pays for or
whether it’s a counsel that is provided to him

[T]he defendant’s right to counsel

of his choice is not absolute and must give way when required by the fair and proper

28

administration of justice.”7 Id.
Therefore, the Chancery Division never addressed the merits of Dr. Rambo’s
federal counsel of choice claim. Rather, to the extent that a state court did discuss a
Sixth Amendment issue, it did so by substituting an entirely different Sixth
Amendment protection for the counsel of choice claim that Dr. Rambo raised. 8 This
alteration utterly failed to give a full and fair hearing to the right at stake, and
elevated the Gideon right to an appointed attorney to a position of Constitutional
supremacy relative to the counsel of choice right that lies at the heart of the Sixth
Amendment. Most importantly, where a trial court's appointment of an attorney to
represent a non-indigent criminal defendant can be so easily used to supplant
the counsel of choice right, there is virtually nothing to stop legislative or judicial
efforts to all but eliminate the ability of criminal defendants to exercise the core
promise of the Sixth Amendment right to counsel of choice. That was never the
intent of this Court when it decided Gideon, and the Chancery judge's reference to
such a “remedy” demonstrates that Dr. Rambo’s Sixth Amendment counsel of choice
claim was not decided on the merits by the Chancery Division, and was, therefore,

7 It should be noted that the Criminal judge claimed he did not have jurisdiction to
consider the interference of the Chancery restraints upon Dr. Rambo's Sixth
Amendment counsel of choice right. If that is true, then the Chancery judge did not
have jurisdiction to rule on the “proper administration of justice” for the criminal
matter, yet he did just that.
8 "The right to self-representation and the assistance of counsel are separate rights
depicted on the opposite sides of the same Sixth Amendment coin." United States v.
Purnett, 910 F.2d 51, 54 (2d Cir. 1990). Dr. Rambo argues that the right to employ
counsel of choice is equally a separate and distinct side of the Sixth Amendment
coin that was totally side-stepped by the New Jersey courts and the Third Circuit.
29

subject to de novo review on appeal.
The Appellate Division did no better when it reviewed the Chancery case
nine years later. With respect to the Sixth Amendment claim, the court merely said
“[djefendant’s remaining arguments, including those attacking the Chancery
Division’s decision as a denial of his right to counsel under the Sixth
Amendment, lack sufficient merit to warrant a discussion in a written opinion.”
See In re Estate ofRambo, No. A-5308-09 (N.J. App. Div. 2012) (Appendix H) (citing
N.J.R.Ct. 2:ll-3(e)(l)(E) (emphasis added). The Appellate Division’s summary
affirmance of the Chancery Court’s disposition did not add even the thinnest veneer
of case-specific or constitutional analysis to Dr. Rambo’s overlooked claim that
he was denied counsel of choice. Id.
Therefore, the Appellate Division did not fill the "adjudication on the merits"
gap because it summarily disposed of Dr. Rambo’s constitutional claim and
presumably adopted the same reasoning of the Chancery judges. See Ylst v.
Nunnemaker, 501 U.S. 797, 802-803 (1991) (an unexplained order of a state court
upholding a prior judgment of a lower court is presumed to be based upon the same
ground as that relied upon by the lower court); Wilson v. Seller,

U.S.__ , 138 S.

Ct. 1188 (2018). Accordingly, the decision by the Appellate Division, like that of the
Chancery Court, cannot be said to have been an adjudication of the merits. And by
denying certification, the New Jersey Supreme Court added no additional analysis
of Dr. Rambo’s Sixth Amendment right to counsel of choice. See In re Estate of
Rambo, 54 A.3d 810 (N.J. 2012).

30

With that as background, it is evident that the Third Circuit’s first decision
was contrary to Williams, when it concluded that the New Jersey Chancery Division
had rendered a “merits” judgment on Dr. Rambo’s Sixth Amendment counsel of
choice claim. (Appendix C). The District Court was correct in concluding that the
state courts failed to evaluate the evidence supporting the counsel of choice claim,
apply the relevant legal analysis, or weigh the “intrinsic rights and wrongs” of the
claim. (Appendix E). Cf. Williams, 568 U.S. at 303.
In the Criminal Division, the judge recognized and articulated the relevant
Sixth Amendment issue, remarking, “I don’t know any precedent that allows
somebody to freeze a criminal suspect’s assets.... I’m just astounded by that....
[TJhere’s still a presumption of innocence in America. And Mr. Rambo - Dr. Rambo,
excuse me, should have access to funds which he needs to provide for his defense.”
Nevertheless, the criminal judge never issued a ruling on the merits because it
concluded that, as a matter of state procedure, it was powerless to intervene in the
Chancery matter.
On direct appeal, the Appellate Division observed that Dr. Rambo’s counsel of
choice claim was “complex” and, if decided on the merits, would require “a close
analysis of the statutory language, the legislative goals sought to be achieved by the
statute and the proper balance to be given to the defendant’s choice of counsel.” See
State of New Jersey v. Roy L. Rambo, Jr., 401 N.J. Super. 506, 1084 (App. Div.
2008); (Appendix G). But the Appellate Division denied Rambo’s motion to expand
the record to include a review of the Chancery proceedings and, like the trial court,

31

refused to reach the merits of the Sixth Amendment claim because doing so “would
inextricably require that we either uphold or reverse a determination made in
Chancery which is not properly before us.” Id. Likewise, in response to Dr. Rambo’s
State PCR application, both the Law and Appellate Divisions avoided the Sixth
Amendment claim by refusing to consider the Chancery Division record. See State of
New Jersey v. Roy L. Rambo, Jr., No. 02-12-0472, (N.J. App. Div. 2013); (Appendix
F). The Third Circuit, therefore, erred when it concluded that the claim had been
adjudicated on the merits.9 (Appendix C). For these reasons, Dr. Rambo respectfully
requests this Court to grant this petition for certiorari and vacate the decisions by
the Third Circuit.
IV.

Most State And Federal Courts Have Decided The Question
Regarding Property Rights Under The Slayer Statute In A Manner
That Conflicts With The Decisions By The Third Circuit In This
Case. This Court Should Resolve This Disparity Among The Lower
Courts On This Issue Because It Implicates Substantial
Constitutional Rights, Including The Sixth Amendment Right To
Counsel Of Choice, Due Process And A Fair Trial.
Nearly every state has enacted a slayer statute based on the Uniform Probate

Code § 2-803.10 The legislative intent for these statutes is nearly identical to the
New Jersey Slayer Statute, N.J.S.A. § 3B: 7-1, et seq. (1982) - to prevent a
murderer for acquiring sole ownership of the victim's property by virtue of the

9 And, of course, as argued above, even if the New Jersey courts can be said to have
adjudicated the merits, the resolution was contrary to clearly established
Constitutional precedent.
10 Available from the National Conference of Commissioners on Uniform State
Laws, 676 North St. Clair Street, Suite 1700, Chicago, Illinois 60611.
32

criminal act. The statutes in no way authorize the extinction or diminishment of the
prior legal interests the killer possessed at the time of the decedent's death. Simply
stated, they exclude the killer from acquiring the victim's estate; but they do not
propose to enrich the victim’s estate from the killer's property. The
preponderance of the courts that have decided property issues under the slayer
statutes have clearly ruled that the killer-spouse is not dispossessed of his/her share
of marital assets as a result of the crime. (See Appendix J — compilation of state,
federal, and bankruptcy court decisions). These persuasive decisions are clearly in
conflict with the decisions rendered by the New Jersey and federal courts in the
instant matter. While some of these cases involve a spousal murder/suicide, or
bankruptcy that followed a murder or murder/suicide, the legal conclusions are still
relevant to the instant case.11 The cases listed in Appendix J have been presented
to the New Jersey courts, the District Court, and the Third Circuit, which have all
ignored this plethora of case law. Because the Third Circuit failed to consider these
informative cases and concluded that Dr. Rambo was not denied his
fundamental Sixth Amendment right to employ counsel of his choice

11 Dr. Rambo submits that the principle of "disgorgement" is comparable to the
civil asset forfeiture issues under the Slayer Statute and this matter should have
been decided in a similar manner.
Disgorgement - a remedy within the statutory category of "other
order[s]," 52 U.S.C. § 30109(a)(6)(B) - may be proper when it is
"necessary to avoid the unjust enrichment" of the violator.
Disgorgement is not meant to be punitive or compensatory;
rather, "the primary purpose of disgorgement is ... to deprive the
wrongdoer of his ill-gotten gain." (internal quotation marks
omitted)(emphasis added).
33

(Appendix A and C), this Court should resolve this discrepancy and vacate the
decisions by the Third Circuit.
Recently, in Hartford Life and Accident Ins. Co. u. Aduiento, Civ. No. 1600565 (HG-RLP) (D.Haw. July 10, 2018), the district courts dictum and judgment
conflicts with that of the State and federal decisions rendered in the instant matter.
Slayer statutes are not penal, punitive, or compensatory. Restatement
(Third) of Property (Wills & Don. Trans.) § 8.4 (2003); heavy, Taber,
Schultz & Bergdahl v. Metro. Life Ins. Co., 20 Wn. Appendix 503, 581
P.2d 167, 171 (Wash. Ct. Appendix 1978). Slayers statutes do not
cause the killer to forfeit any of their own property. Rather, the
rule prevents the killer from benefitting from the wrong he committed.
The social interest served by refusing to permit a criminal to profit
from his crime is greater than that served by the preservation and
enforcement of legal rights of ownership. Estate of Castiglioni, 40 Cal.
Appendix 4th 367, 374-75, 47 Cal. Rptr. 2d 288 (Cal. Ct. Appendix
1995)(citing Estate of McGowan, 35 Cal. Appendix 3d 611, 615-616, 111
Cal. Rptr. 39 (Cal. Ct. Appendix 1973)).
Similarly in New York Life Ins. Co. v. Estate of Powell, C12-5184 (RBL) (W.D.
Wa. May 14, 2014), the district court's reasoning and decision also conflicts with the
decisions in the instant matter.
The "slayer rule," which most states have codified, including
Washington, serves an important, limited purpose. Generally, the
slayer rule prevents a killer from benefiting from the death that he or
she wrongfully caused. The rule is not meant to be punitive or
compensatory. Armstrong v. Bray, 64 Wash. Appendix 736, 741, 826
P.2d 706, 709 (1992); see also Restatement (Third) of Property § 8.4
cmt. a (2003). It is not meant to invade the realm of tort law. Its
limited purpose is to prevent the killer from being unjustly
enriched. (Emphasis added).
See also In re Steven Craig Powell, Debtor, No. 14-43428, 2015 Bankr
LEXIS 1385 (related case).
Dr. Rambo maintains that the lower courts in this matter ruled in a manner
that clearly deprived him of his rightful assets; and as a consequence, violated his

34

Sixth Amendment right to counsel of choice. He further submits that this Court
should resolve the discrepancy between his case and the majority of other courts, as
a matter of public importance, since this issue is likely to recur in other spousal
homicide cases. Likewise, these ambiguous slayer statutes could be arbitrarily and
unconstitutionally applied in cases of patricide, matricide, fratricide, and even in
homicides within civil unions, between business partners, and the like, which
clearly calls for an exercise of this Court's supervisory power. For these reasons, Dr.
Rambo respectfully requests this Court to grant this petition for certiorari and
vacate the decisions by the Third Circuit.
V.

This Court's Ruling In Luis V. United States, Which Prohibits The
Pretrial Restraint Of Legitimate, Untainted Assets Needed To
Retain Counsel Of Choice, Should Be Declared Retroactive For
Cases On Collateral Review Where It Can Be Demonstrated That:
(1) A Court Ordered Restraint Upon Untainted Assets
Prevented The Defendant From Exercising His/Her Sixth
Amendment Right To Employ Counsel For The Criminal
Matter;
(2) But For The Court Ordered Restraint, The Defendant
Had Adequate Financial Resources To Retain Counsel Of
Choice For The Criminal Matter; And
(3) The Defendant Moved For The Release Of Assets
Sufficient To Retain Counsel Prior To The Criminal Trial,
As In The Instant Matter.
In Luis v. United States, 578 U.S.

., 136 S. Ct. 1083 (2016), this Court

considered whether the pretrial restraint of legitimate, untainted assets that
belonged fully to the criminal defendant infringed on her Sixth Amendment right to
counsel of choice. The government claimed Ms. Luis violated Federal health care
and banking laws. Before trial, the government moved to restrain her assets,

35

including substitute assets not directly traceable to the alleged fraud, pursuant to
18 U.S.C. § 1345. After granting a temporary restraining order, the District Court
held a hearing on a motion for preliminary injunction and ultimately granted the
government's motion. Ms. Luis appealed, arguing that she needed her untainted
funds to pay her criminal defense lawyer and restraining those funds before trial
violated her constitutional rights.
This Court granted certiorari and determined that Ms. Luis had a Sixth
Amendment right to use her own "innocent" property to pay a reasonable fee for
the assistance of defense counsel. The Court held that the restraining order placed
on Ms. Luis' untainted assets prevented her from exercising her Sixth Amendment
right to counsel of choice. That impediment created a "structural error" that
required reversal of the lower court's order. Luis relied on this Court's precedent,
namely Caplin & Drysdale) and Monsanto, which were decided prior to the date
that Dr. Rambo's case became final.
Arguably, Luis did not make a new rule; but instead, this Court simply
interpreted the law and explained what the Federal forfeiture statute had
always meant - that the government, or a judge, is not authorized to restrain
legitimate, untainted assets that the defendant requires to fund his/her defense in a
criminal matter. Cf. Rivers v, Roadway Express, Inc., 511 U.S. 298, 313 n.12 (1994).
When Congress enacts a new statute, it has the power to decide when
the statute will become effective. The new statute may govern from the
date of enactment, from a specified future date, or even from an
expressly announced earlier date. But when this Court construes a
statute, it is explaining its understanding of what the statute
has meant continuously since the date when it became law. In

36

statutory cases the Court has no authority to depart from the
congressional command setting the effective date of-a law that it has
enacted. (Emphasis added).
Although Dr. Rambo's case involved a state slayer statute, his counsel of
choice claim is the equivalent to the claim in Luis — the New Jersey Slayer Statute
never authorized the restraint of his share of the marital assets. And that unlawful
restraint created a Sixth Amendment counsel of choice structural error. Dr. Rambo
argued the same case law as did counsel for Ms. Luis when he filed appeals to all
State and Federal courts below. He argued the same case law in his writ of
certiorari to this Court from the denial of his direct appeal in See Roy L. Rambo, Jr.
v. New Jersey, No. 08-9187, 556 U.S. 1225 (2009), from his appeal of the civil matter
in Roy L. Rambo, Jr., v. Estate of Linda Ann Rambo, Deceased, No. 12-8177, 571
U.S. 1237 (2014), and from the denial of habeas relief in Roy L. Rambo u. Patrick
Nogan, Administrator, East Jersey State Prison, et al., No. 18-8871,

U.S.

139 S. Ct. 2701 (2019). However, this Court summarily denied certiorari for these
three prior petitions.
Dr. Rambo maintains that he has repeatedly made a "substantial showing of
the denial of a constitutional right," in that: (1) a court ordered restraint upon Dr.
Rambo's untainted assets prevented him from exercising his Sixth Amendment
right to employ counsel for the criminal matter; (2) but for the court ordered
restraint, Dr. Rambo had adequate financial resources to retain counsel of choice for
the criminal matter; and (3) Dr. Rambo moved for the release of assets sufficient to
retain two private attorneys prior to the criminal trial. Had this Court previously

37

1

granted certiorari, it is most likely Dr. Rambo would have been granted relief under
this Court's precedents in Caplin & Drysdale and Monsanto and in accordance with
the fundamental Constitutional principles explained in Luis. For these reasons, Dr.
Rambo submits that he is entitled to the same Sixth Amendment justice, albeit
much delayed, as Ms. Luis received. He respectfully requests this Court to grant
this petition for certiorari and vacate the decisions by the Third Circuit.
By granting this petition, this Court can also solidify the Constitutional
principles of Caplin & Drysdale, Monsanto, and Luis to ensure that all state and
federal civil forfeiture statutes, including the slayer statutes, are not utilized to
circumvent the Sixth Amendment right to retain counsel of choice in a criminal
proceeding. Dr. Rambo suggests that there may be a few similarly situated criminal
defendants who should be granted this relief, which this Court can do by declaring
Luis retroactive for cases on collateral review, subject to the three criteria listed
above.
VI.

The State And Federal Courts In This Matter Violated Several
Unenumerated Rights Guaranteed By The Ninth Amendment; The
Supremacy Clause; And Other Substantial Constitutional
Protections, Where The Lower Courts Departed From The Accepted
And Usual Course Of Judicial Proceedings, Or Sanctioned Such A
Departure, As To Call For An Exercise Of This Courts Supervisory
Power.
Dr. Rambo submits that the Constitution of the United States authorizes

only the Federal government, not any State, to print and circulate currency in this
country. U.S. Const, art. 1, Sec. 10, Cl. 1. With its circulation, citizens have an
unenumerated right to earn, accumulate, devise, and spend U.S. Currency as s/he

38

so desires, as long as it conforms to lawful purposes. Under the Ninth and
Fourteenth Amendments, as well as the Supremacy Clause, no State statute
including a New Jersey probate statute, can lawfully deprive any person of their
right to spend their legitimately earned U.S. Currency (or to sell or leverage their
real or personal properties purchased with that currency) to retain an otherwise
qualified attorney to defend a criminal matter. That is precisely what went astray
in the State courts below and what is the crux of this case.
Whether the wrongful deprivation of Dr. Rambo's legitimate, untainted
assets constituted a violation under the Ninth Amendment retained or fundamental
rights clause; the Supremacy Clause; the First Amendment freedom of expression
through his desired attorneys; the Sixth Amendment counsel of choice right; the
Fifth or Fourteenth Amendment property and due process rights; or the Eighth
Amendment excessive fines clause, it is obvious that the Chancery Division
obstructed the fundamental fairness and reliability of the entire criminal trial
process. The "structural error" here mandates Dr. Rambo's conviction to be vacated.
For these reasons, Dr. Rambo requests this Court to grant this petition for
certiorari and vacate the decisions by the Third Circuit. Dr. Rambo further requests
this Court to exercise its Court's supervisory power clarify the scope and application
of state and federal civil forfeiture statutes, including state slayer statutes,
throughout this country.

39

VII. Dr. Rambo's Waiver Of His Sixth Amendment Right To CourtAppointed Counsel Was Invalid Requiring Reversal Of His
Conviction.
Dr. Rambo's waiver of court-appointed counsel was not an autonomous act, as
it was exercised only after there was a previous and erroneous depravation of other
constitutional rights - right to use his untainted, vested assets to retain counsel of
his choice. If not for the unlawful intervention by the Chancery Division, Dr. Rambo
would have retained the services of two certified criminal defense attorneys to
represent him in the criminal case. (Appendix I). The "structural error" here
mandates Dr. Rambo's conviction to be vacated. For these reasons, Dr. Rambo
requests this Court to grant this petition for certiorari and vacate the decisions by
the Third Circuit.
CONCLUSION
The decisions of the Third Circuit, as well as the courts below: (1) are
contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United States; and (2) resulted in a
decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding; (3) are in conflict with other
jurisdictions; and (4) Dr. Rambo is in custody in violation of the Constitution or laws
of the United States. For these reasons, Dr. Rambo respectfully requests this Court
to grant this petition for a writ of certiorari.
Respectfully submitted,
Dated :

January 8. 2021
Roy L. Rambo, Jr., Pro Se

40

